Audit Report




OIG-08-019
Audit of the Office of Thrift Supervision’s Fiscal Years
2007 and 2006 Financial Statements


December 12, 2007




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                December 12, 2007


             MEMORANDUM FOR JOHN M. REICH, DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Office of Thrift Supervision’s Fiscal Years 2007
                                      and 2006 Financial Statements


             I am pleased to transmit the attached audited Office of Thrift Supervision (OTS)
             financial statements for fiscal years 2007 and 2006. Under a contract monitored
             by the Office of Inspector General, Deva & Associates, P.C. (DEVA), an
             independent certified public accounting firm, performed an audit of the financial
             statements of OTS as of September 30, 2007 and 2006, and for the years then
             ended. The contract required that the audit be performed in accordance with
             generally accepted government auditing standards; applicable provisions of Office
             of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
             Financial Statements; and the GAO/PCIE Financial Audit Manual.

             The following reports, prepared by DEVA, are incorporated in the attachment:

                      •   Independent Auditors’ Report;
                      •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditors’ Report on Compliance with Laws and Regulations.

             In its audit of OTS’s financial statements, DEVA found:

                      •   that the financial statements were fairly presented, in all material
                          respects, in conformity with accounting principles generally accepted in
                          the United States of America,
                      •   no matters involving internal control and its operation that are considered
                          material weaknesses, and
                      •   no instances of reportable noncompliance with laws and regulations
                          tested.
Page 2


In connection with the contract, we reviewed DEVA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on the
financial statements or conclusions about the effectiveness of internal control or
compliance with laws and regulations. DEVA is responsible for the attached auditors’
reports dated November 2, 2007 and the conclusions expressed in the reports.
However, our review disclosed no instances where DEVA did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Audit Manager, Financial Audits at
(202) 927-5076.

Attachment
     2007 

Financial Report 





Office of Thrift 

 Supervision 

                       Table of Contents
                                                          Page



Independent Auditors’ Report …………….….………..…..              1


Financial Statements ………………..………………..….…..                 2



Notes to Financial Statements ……..…………...……….…             5



Independent Auditors’ Report on Internal Control Over 

      Financial Reporting …………………………….….....               16 



Independent Auditors’ Report on Compliance with 

      Laws and Regulations ….………………….…….…..                18 

Deva & Associates, P.C. 

                                                 1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                      (301) 610-5600 • FAX (301) 610-9910




                            INDEPENDENT AUDITORS' REPORT



 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the accompanying statements of financial position of the U.S. Department of
 the Treasury, Office of Thrift Supervision (OTS) as of September 30, 2007 and 2006, and the
 related statements of operations and changes in net position, and cash flows for the years then
 ended. These financial statements are the responsibility of OTS’ management. Our
 responsibility is to express an opinion on these financial statements based on our audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United
 States of America; the standards applicable to financial audits contained in Government Auditing
 Standards, issued by the Comptroller General of the United States; and applicable Office of
 Management and Budget (OMB) guidance for audits of federal financial statements. Those
 standards require that we plan and perform the audits to obtain reasonable assurance about
 whether the financial statements are free of material misstatement. An audit includes examining,
 on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
 audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that
 our audits provide a reasonable basis for our opinion.

 In our opinion, the financial statements referred to above present fairly, in all material respects,
 the financial position of OTS as of September 30, 2007 and 2006, and the results of its
 operations and its cash flows for the years then ended in conformity with accounting principles
 generally accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued a report dated
 November 2, 2007, on our consideration of OTS’ internal control over financial reporting and a
 report dated November 2, 2007, on its compliance with laws and regulations. These reports are
 an integral part of an audit performed in accordance with Government Auditing Standards and
 should be read in conjunction with this report in considering the results of our audit.




                                               Certified Public Accountants

 November 2, 2007


                                                  1
                    UNITED STATES DEPARTMENT OF THE TREASURY

                           OFFICE OF THRIFT SUPERVISION

                        STATEMENTS OF FINANCIAL POSITION

                                    (In thousands)





                                                                            As of September 30
                                                                          2007             2006
Assets

   Cash and cash equivalents (Note 3)                                $    227,146     $   155,731
   Accrued interest receivable                                                706           1,133
   Accounts receivable                                                      1,365           1,586
   Investments held to maturity (Note 4)                                   79,180         123,966
   Property and equipment, net (Note 5)                                    32,167          32,811
   Other assets                                                             1,438           1,109

         Total Assets                                                $    342,002     $   316,336

Liabilities and Net Position

Liabilities

   Accounts payable                                                  $      1,988     $     1,627
   Accrued annual leave                                                    10,854          10,656
   Workers' compensation liability (Note 6)                                 3,587           3,717
   Deferred compensation liability (Note 7)                                   471             575
   Deferred assessment revenue                                             55,312          55,821
   Deferred rent credit                                                     2,155           2,071
   Post-retirement benefit liability (Note 8)                              16,823          15,626
   Other retirement plan liabilities (Note 9)                               6,056           9,153
   Payroll, benefits, and withholding                                      12,011          12,358
   Other accrued liabilities (Note 10)                                      5,890           2,557

         Total Liabilities                                           $    115,147     $   114,161

Net Position

   Assumed capital                                                   $     41,037     $    41,037
   Retained earnings                                                      185,818         161,138

         Total Net Position (Note 11)                                $    226,855     $   202,175

         Total Liabilities and Net Position                          $    342,002     $   316,336




   The accompanying notes are an integral part of these financial statements.


                                                2
                  UNITED STATES DEPARTMENT OF THE TREASURY

                         OFFICE OF THRIFT SUPERVISION

             STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION

                          For the Years Ended September 30

                                    (In thousands)





                                                                                 For the Years Ended
                                                                                    September 30
                                                                                2007             2006
Revenues

   Industry assessments                                                 $   217,506         $   212,290
   Examination, application, and security filing fees                         8,156               9,330
   Interest                                                                  11,528               8,841
   Rental income (Note 12)                                                    4,984               4,818
   Other                                                                        635               1,269

   Total Revenues                                                       $   242,809         $   236,548

Expenses

   Personnel compensation                                               $   113,196         $   105,820
   Benefits (Note 9)                                                         59,582              57,194
   Rent, communication, and utilities (Note 13)                               6,925               6,429
   Travel and transportation                                                 15,198              12,940
   Services                                                                   7,918               5,948
   Data processing                                                            2,248               1,370
   Building expenditures                                                      5,238               3,401
   Office equipment and software                                              3,107               2,131
   Miscellaneous                                                              2,843               2,350
   Depreciation and amortization                                              1,874               1,914

   Total Expenses                                                       $   218,129         $   199,497

Excess of Revenues over Expenses                                        $       24,680      $    37,051

Net Position, Beginning Balance                                             202,175             165,124

Net Position, Ending Balance                                            $   226,855         $   202,175




   The accompanying notes are an integral part of these financial statements.


                                                        3
                      UNITED STATES DEPARTMENT OF THE TREASURY

                             OFFICE OF THRIFT SUPERVISION

                              STATEMENTS OF CASH FLOWS

                              For the Years Ended September 30

                                        (In thousands)





                                                                                 For the Years Ended

                                                                                    September 30

                                                                                2007             2006

CASH FLOWS FROM OPERATING ACTIVITIES

Excess of revenues over expenses                                          $     24,680      $    37,051

Adjustments to reconcile excess of revenues over expenses to
 net cash provided by operating activities:
     Amortization of net bond premium                                             (214)              (4)
      Depreciation and amortization                                              1,874            1,914
      Net gain on disposed assets                                                  -                (76)

Changes in assets and liabilities:
     (Increase)/decrease in receivables                                            648             (394)
     Increase in other assets                                                     (329)            (240)
     Increase in accounts payable                                                  361              518
     Increase in other liabilities                                                 625            6,967

      Net cash provided by operating activities                           $     27,645      $    45,736

CASH FLOWS FROM INVESTING ACTIVITIES

      Purchases of investments                                            $        -        $   (28,638)
      Maturities of investments                                                 45,000           30,115
      Purchases of equipment                                                    (1,233)          (1,798)
      Proceeds from sale of equipment                                                3               78

      Net cash provided by/(used in) investing activities                 $     43,770      $      (243)

Net cash provided by operating and investing activities                   $     71,415      $    45,493

Cash and cash equivalents, beginning of year                                   155,731          110,238

Cash and cash equivalents, end of year                                    $    227,146      $   155,731




  The accompanying notes are an integral part of these financial statements.



                                                     4
                            UNITED STATES DEPARTMENT OF THE TREASURY 

                                   OFFICE OF THRIFT SUPERVISION 


                                     NOTES TO FINANCIAL STATEMENTS 



1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions.

FIRREA provides that OTS assess the institutions it regulates to recapture operating costs. Assessments are
collected semiannually on January 31 and July 31.


2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, however, that financial statements prepared based upon accounting standards published by the FASB
may also be regarded as being in accordance with generally accepted accounting principles for those federal entities
such as OTS that have issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, OTS financial statements are presented in accordance with accounting standards
published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested overnight
by Treasury on behalf of OTS.

INVESTMENTS HELD TO MATURITY

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to
classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity. All
of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.




                                                         5

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 




2. SIGNIFICANT ACCOUNTING POLICIES (continued)

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Postretirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the estimated
costs that will be paid after retirement is being accrued by charges to expense over the employees’ active service
periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the transition
amount (unfunded cost at January 1, 1993) over twenty (20) years beginning in 1993 in accordance with the option
available in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims and as
OTS paid premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994, OTS
agreed to pay a one-time fee to OPM in consideration of OPM assuming the health care portion of the post
retirement plan liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets in excess of $50,000 and bulk
purchases in excess of $250,000 are capitalized. Aggregate purchases of multiple items directly related to a specific
project (for example, leasehold improvements) are capitalized when the total cost exceeds a minimum threshold of
$250,000, and the annual amortization amount exceeds $50,000. The building owned by OTS is being depreciated
over 50 years. The agency’s capitalized furniture, fixtures and equipment are depreciated over 3 to 5 years.
Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.




                                                        6

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 




3. CASH AND CASH EQUIVALENTS

The following table summarizes the balances of cash and cash equivalents (in thousands):

                                                        September 30
                                                      2007         2006

         Cash                                   $       1,019   $     1,020
         Overnight investment with Treasury           226,127       154,711
         Total cash and cash equivalents        $     227,146   $ 155,731

Interest earned on cash and overnight investments totaled $7.8 million and $4.8 million for the years ended
September 30, 2007 and 2006, respectively.


4. INVESTMENTS HELD TO MATURITY

Investment securities held at September 30, 2007 and 2006 are marketable Treasury securities maturing through
February 2010. The amortized cost and market value of these securities are summarized as follows (in thousands):

                                                                                   September 30
                                                                                2007          2006

         Face value                                                        $    80,000 $       125,000
         Unamortized premium, net of unamortized discount                         (820)         (1,034)

         Book value of investments held to maturity                        $    79,180     $   123,966

         Market value                                                      $    79,231     $   122,183

Effective interest yields range from 2.7 percent to 4.8 percent. Interest earned on these investments totaled $3.7
million and $4.0 million for the years ended September 30, 2007 and 2006, respectively.




                                                        7

                          UNITED STATES DEPARTMENT OF THE TREASURY 

                                 OFFICE OF THRIFT SUPERVISION 


                                   NOTES TO FINANCIAL STATEMENTS 




5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                                 September 30

                                                                              2007          2006


        Land                                                              $     7,101   $      7,101
        Building                                                               49,188         49,188
        Furniture, fixtures, and equipment                                      4,856          3,850
        Leasehold Improvements                                                  1,852          1,852
         Total cost                                                       $    62,997   $     61,991

        Accumulated depreciation, building                                $   (27,599) $     (26,546)
        Accumulated depreciation, furniture, fixtures, and equipment           (2,591)        (2,134)
        Accumulated amortization, leasehold improvements                         (640)          (500)
         Total accumulated depreciation and amortization                  $   (30,830) $     (29,180)

        Property and equipment, net                                       $    32,167   $     32,811


6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit
claims incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board,
are administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of
future workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using
OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $3.6 million and $3.7 million as of
September 30, 2007 and September 30, 2006, respectively. Actual FECA expenses currently payable are included
in other accrued liabilities and totaled $742 thousand and $741 thousand as of September 30, 2007 and September
30, 2006, respectively. Changes in the actuarial liability and payments related to FECA are reflected as reductions
or increases in benefits expense in the appropriate year.




                                                       8

                          UNITED STATES DEPARTMENT OF THE TREASURY 

                                 OFFICE OF THRIFT SUPERVISION 


                                   NOTES TO FINANCIAL STATEMENTS 




7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Under the assumed plans, benefits were intended to be
provided by cash value life insurance policies issued by Mutual Benefit Life; Mutual Benefit Life went into
rehabilitation on July 16, 1991. OTS surrendered all but two of these policies in 1994 and retained the full cash
values on deposit with Mutual Benefit Life. Under the rehabilitation plan, withdrawal of cash values prior to
December 31, 1999, was restricted and subject to substantial withdrawal penalties. In 2003, OTS elected to receive
the cash values for surrendered policies and invest the funds with Treasury. The cash value of the one remaining
policy, included in other assets in the accompanying Statements of Financial Position, is approximately $15
thousand in 2007 and $13 thousand in 2006. Plan payments are funded by OTS.


8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency funds
benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based on
certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over twenty (20) years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and who
were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits (FEHB) Program for
coverage effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM
constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million
in 1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize
over 20 years in 1993. The post-retirement liability of $16.8 million in the accompanying Statements of Financial
Position at September 30, 2007 and $15.6 million at September 30, 2006 represents OTS’s recognized portion of the
remaining liability for participants’ future life insurance benefits.




                                                       9

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                     NOTES TO FINANCIAL STATEMENTS 



8. POST-RETIREMENT BENEFIT LIABILITY (continued)

Net periodic post-retirement benefit cost for life insurance provisions under the Plan included the following
components in 2007 and 2006 (in thousands):

                                                                                     For the Years Ended 

                                                                                        September 30

                                                                                     2007           2006


         Service cost - current year                                           $          574 $            546
         Interest on accumulated post-retirement benefit obligation                       988              931
         Amortization of transition obligation                                            253              253

         Net post-retirement benefit expense                                   $        1,815 $          1,730

         The following table sets forth the Plan’s funded status reconciled with the liability recognized in the
         Statements of Financial Position (in thousands):
                                                                                         September 30
                                                                                     2007              2006
         Accumulated post-retirement benefit obligation:
               Retirees                                                        $       10,478 $           9,852
               Other fully eligible participants                                        6,082                71
               Other active participants                                                2,733             8,617
         Accumulated post-retirement benefit obligation                                19,293           18,540

         Unrecognized transition obligation                                            (1,327)           (1,579)
         Unrecognized net loss                                                         (1,143)           (1,335)

         Total post-retirement benefit liability                               $       16,823 $         15,626

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations at
September 30, 2007 and September 30, 2006 were 5.50 percent and 5.42 percent, respectively


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7.0 percent of regular earnings. OTS also contributed 7.0 percent of regular earnings during 2007 and
2006 for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this
employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.




                                                        10 

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 



9. OTHER RETIREMENT PLAN LIABILITIES (continued)

For employees with more than five years of (not necessarily continuous) service, hired on or after January 1, 1984,
OTS withholds 0.8 percent of regular earnings, in addition to Social Security withholding. OTS also contributed
7.0 percent of regular earnings in 2007 and 2006, respectively, for each employee in this tier. When regular
earnings exceed the FICA maximum wages, employees covered under this tier of CSRS are required to have 7.0
percent of their earnings withheld. This employee group will receive retirement benefits from both CSRS and the
Social Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
five years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2007 and 2006.
The agency contributed 11.2 percent of regular earnings in both 2007 and 2006 for FERS employees. This group of
employees will receive benefits from FERS as well as the Social Security System, to which they concurrently
contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss. The estimated FIRF plan contributions for the plan years beginning July 1, 2007 and July 1, 2006 consist of
two components: (1) Normal Cost and (2) amortization of the retirement plan’s Unfunded Accrued Liability (UAL)
for the plan year. The estimated UAL totaled $48.2 million for the plan year beginning July 1, 2007. The actual
UAL totaled $50.2 million for the plan year beginning July 1, 2006. The plan year UAL is amortized over
approximately five years in conformance with IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year minimum required contribution from the
FIRF plan administrator. OTS recognizes one-fourth of the required contribution in current fiscal year expense and
the remainder in the next fiscal year. For the fourth quarter of fiscal year 2006, OTS recognized $7.6 million of the
$30.6 million required contribution as expense. The remaining contribution of $23.0 million was reduced by
prepayment to $21.8 million, which was recognized in fiscal year 2007. The minimum required contribution for the
plan year beginning July 1, 2007 is $25.5 million, which was reduced to $24.2 million by prepayment of the
contribution. Accordingly, OTS recognized $6.1 million in expense for the fourth quarter of fiscal year 2007, and
this amount is included in other retirement plan liabilities.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to
accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.

In addition to the retirement plans described above, OTS employees have the option of participating in retirement
savings plans. Employees covered under CSRS or FERS may participate in the OPM-sponsored Thrift Savings
Plan (TSP), a plan with characteristics similar to a private-sector 401(k) plan. CSRS and FERS covered employees
may also participate in the Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra.
Employees covered under FIRF may participate in FITP only. All employees may contribute up to 15 percent of
their earnings to the plans. OTS makes matching contributions of up to 7 percent to the plans for FERS and FIRF
participants and up to 2 percent for CSRS participants.




                                                        11 

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 



9. OTHER RETIREMENT PLAN LIABILITIES (continued)

In 2004, OTS implemented a new Employee Savings Plan (ESP). The ESP was administered by Pentegra and had
characteristics similar to the FITP 401(k) plan described above, except all contributions were funded by OTS and
vesting was scheduled to begin in year four of participation in the plan. On September 29, 2006, the ESP was
terminated which resulted in immediate vesting for the plan participants. To complete the termination, the plan
administrator distributed participant account balances in accordance with the plan provisions in fiscal year 2007.

In the plan years ended September 30, 2005 and 2004, ESP contributions totaling $748 thousand and $720
thousand, respectively, caused some employees to exceed the Internal Revenue Code Section 415 limits. Excess
contributions were removed from the affected employee’s ESP accounts. OTS recorded a nonqualified retirement
savings plan (NQRS) liability to cover the excess contribution amounts removed from employee accounts due to the
IRS limits. The total nonqualified plan liability of $1.5 million as of September 30, 2006 was distributed in fiscal
year 2007 in conjunction with the ESP termination.

The liabilities for all OTS plans, included in other retirement plan liabilities in the accompanying Statements of
Financial Position, are as follows (in thousands):

                                     September 30
                                   2007        2006

         FIRF                 $    6,056    $    7,649

         NQRS                         -          1,504


             Total            $    6,056    $    9,153

The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations and
Changes in Net Position, are as follows (in thousands):

                                  For the Years Ended 

                                     September 30

                                   2007         2006


         CSRS                 $      904    $      931

         FERS                      4,299         3,510

         TSP                       1,644         1,370

         FITP                      4,755         4,646

         FIRF                     29,002        28,174

         ESP                          -            (61)

         NQRS                         -            735


               Total          $ 40,604      $ 39,305




                                                          12 

                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 




10. OTHER ACCRUED LIABILITIES

The following table summarizes the other accrued liabilities (in thousands):

                                                       September 30

                                                    2007          2006


         Post-employment benefits payable      $         742   $         749
         Goods and services                            5,148           1,808

             Total other accrued liabilities   $       5,890   $       2,557


11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital in the Net
Position section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of
September 30, 2007 and 2006.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of foreseeable but rare events.
Foreseeable but rare events are beyond the control of OTS, such as a major change in the thrift industry. The
special reserve supplements revenue from assessments and other sources that are made available to fund OTS’s
annual budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or
unbudgeted and unanticipated requirements or opportunities. Undelivered orders represent the amount of goods and
services ordered that have not been actually or constructively received and for which amounts have not been prepaid
or advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                                       September 30
                                                    2007          2006

              Contingency reserve              $    130,222    $    121,496
              Special reserve                        50,000          35,000
              Undelivered orders                      5,596           4,642

                   Total retained earnings     $    185,818    $    161,138


12. RENTAL INCOME

OTS leases a portion of its building as office and retail space under noncancellable operating leases expiring at
various dates through 2021. Some of the leases provide renewal options. The leases provide for annual base rent
and additional rents for building operating expenses. Some leases provide for fixed future increases in rents over
the term of the lease.




                                                       13
                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                     NOTES TO FINANCIAL STATEMENTS 



12. RENTAL INCOME (continued)

The future minimum rentals to be received under noncancellable operating lease arrangements, not including
renewals, are as follows (in thousands):

         Years ending 

         September 30               Total


         2008                  $    4,678

         2009                         939

         2010                         470

         2011                         420

         2012                         381

         Thereafter                 2,393


                               $    9,281

Rental income totaled $5.0 million and $4.8 million for the years ended September 30, 2007 and 2006, respectively.


13. LEASE COMMITMENTS

OTS conducts most of its regional operations in leased facilities under noncancellable operating leases expiring at
various dates through 2020. Many of the leases contain a provision to renew at the end of the initial term for an
additional one to ten years. The rental payments are based on a minimum rental plus a proportional share of
building operating expenses and taxes.

Some of the operating leases provide for rental escalations or stated annual rental increases in the amount of base
rent over the lives of the leases. The accompanying comparative Statements of Operations and Changes in Net
Position reflect rent expense on a straight-line basis over the lives of the leases.

The minimum rental commitments under noncancellable operating leases are as follows (in thousands):

         Years ending 

         September 30                Total


         2008                   $     3,661

         2009                         3,512

         2010                         3,436

         2011                         3,157

         2012                         2,062

         Thereafter                   8,165


                  Total         $    23,993

Rent expense under noncancellable operating leases totaled $3.9 million and $3.6 million for the years ended
September 30, 2007 and 2006, respectively.




                                                       14
                           UNITED STATES DEPARTMENT OF THE TREASURY 

                                  OFFICE OF THRIFT SUPERVISION 


                                    NOTES TO FINANCIAL STATEMENTS 



14. COMMITMENTS AND CONTINGENCIES

There are approximately twenty-one lawsuits pending against the United States in the Court of Federal Claims and
the Court of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of
supervisory goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment of
FIRREA. The U.S. Department of Justice (Department of Justice) is defending these cases on behalf of the United
States, and OTS is supporting the Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any
judgment issued by the Court of Federal Claims must be paid from appropriated funds. Therefore, OTS funds,
which are non-appropriated, cannot be used to pay judgments in these cases.

In addition, there are two preliminary matters that have not yet reached the point of litigation. In one of those
matters, the claimant has submitted, and OTS has denied, an administrative claim for $5 million in damages. In the
other matter, an entity is contesting a proposed OTS rule, but no claim has yet been submitted. Given the
preliminary stage of both of these matters, OTS is not presently able to estimate either the likelihood of success or
any potential loss that may ultimately result if litigation ensues from either matter.




                                                        15 

Deva & Associates, P.C. 

                                                 1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                      (301) 610-5600 • FAX (301) 610-9910




                      INDEPENDENT AUDITORS' REPORT ON
                 INTERNAL CONTROL OVER FINANCIAL REPORTING


 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2007, and have issued our
 report thereon dated November 2, 2007. We conducted our audit in accordance with auditing
 standards generally accepted in the United States of America; the standards applicable to
 financial audits contained in Government Auditing Standards, issued by the Comptroller General
 of the United States; and applicable Office of Management and Budget (OMB) guidance for
 audits of federal financial statements.

 In planning and performing our audit, we considered OTS’ internal control over financial
 reporting as a basis for designing our auditing procedures, obtained an understanding of the
 design effectiveness of internal controls, determined whether the internal controls have been
 placed in operation, assessed control risk, and performed tests of OTS’ internal controls for the
 purpose of expressing our opinion on the financial statements and OMB guidance for audits of
 federal financial statements, but not for the purpose of expressing an opinion on the effectiveness
 of OTS’ internal control

 Accordingly, we do not express an opinion on the effectiveness of OTS’ internal control.

 A control deficiency exists when the design or operation of a control does not allow management
 or employees, in the normal course of performing their assigned functions, to prevent or detect
 misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
 of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
 process, or report financial data reliably in accordance with generally accepted accounting
 principles such that there is more than a remote likelihood that a misstatement of the entity’s
 financial statements that is more than inconsequential will not be prevented or detected by the
 entity’s internal control.

 A material weakness is a significant deficiency, or combination of significant deficiencies, that
 results in more than a remote likelihood that a material misstatement of the financial statements
 will not be prevented or detected by the entity’s internal control.




                                                 16

Deva & Associates, P.C. 

 Our consideration of internal control was for the limited purpose described in the second
 paragraph and would not necessarily identify all deficiencies in internal control that might be
 significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
 control that we consider to be material weaknesses, as defined above.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB, the Government Accountability
 Office and Congress and is not intended to be and should not be used by anyone other than those
 specified parties.




                                             Certified Public Accountants
 November 2, 2007




                                                17

Deva & Associates, P.C. 

                                               1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                    (301) 610-5600 • FAX (301) 610-9910




                INDEPENDENT AUDITORS' REPORT ON COMPLIANCE 

                        WITH LAWS AND REGULATIONS




 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2007, and have issued our
 report thereon dated November 2, 2007. We conducted our audit in accordance with auditing
 standards generally accepted in the United States of America; the standards applicable to
 financial audits contained in Government Auditing Standards, issued by the Comptroller General
 of the United States; and applicable Office of Management and Budget (OMB) guidance for
 audits of federal financial statements. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material
 misstatement.

 As part of obtaining reasonable assurance about whether OTS’ financial statements are free of
 material misstatement, we performed tests of its compliance with certain provisions of applicable
 laws and regulations, and contracts, noncompliance with which could have a direct material
 effect on the determination of financial statement amounts. However, providing an opinion on
 compliance with those provisions was not an objective of our audit, and accordingly, we do not
 express such an opinion. The results of our tests disclosed no instances of noncompliance or
 other matters that are required to be reported under Government Auditing Standards or OMB
 guidance for audits of federal financial statements.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB, the Government Accountability
 Office and Congress and is not intended to be and should not be used by anyone other than those
 specified parties.




                                             Certified Public Accountants

 November 2, 2007




                                                18

